No. 20-787
IN THE

Supreme Court of the United States
PRESERVE RESPONSIBLE SHORELINE
MANAGEMENT, et al,

Petitioners,
v.
CITY OF BAINBRIDGE ISLAND, et al,

Respondents.
On Petition for Writ of Certiorari to
the Washington Court of Appeals
CERTIFICATE OF SERVICE

It is hereby certified that all parties required to be served have been
served with copies of the Opposition to Petition for Writ of Certiorari, via
first-class mail, postage prepaid, on this 8th day of January 2021.
[See Attached Service List]

2

DATED: January 8, 2021.
/s/ W. Scott Snyder
W. Scott Snyder
Counsel of Record
James E. Haney
Aaron P. Riensche
Ogden Murphy Wallace, P.L.L.C.
901 Fifth Avenue, Suite 3500
Seattle, WA 98164
(206) 447-7000
ssnyder@omwlaw.com

Attorneys for Respondent City of
Bainbridge Island

3

US 20-787 Service List
Glenn E. Roper
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
Tel: (916) 419-7111
geroper@pacificlegal.org
Richard M. Stephens
Stephens & Klinge, LLP
601 108th Avenue NE
Suite 1900
Bellevue, WA 98004
Telephone: (425) 429-2532
Counsel for Petitioners
Phyllis J. Barney
Assistant Attorney General
Ecology Division
Dionne Padilla-Huddleston
Assistant Attorney General
Licensing & Administrative Law
PO Box 40117
Olympia, WA 98504
(360) 586-6770
phyllisb@atg.wa.gov
dionnep@atg.wa.gov
Attorneys for Respondent Dep’t of Ecology

4

Lisa M. Petersen
Assistant Attorney General
Licensing & Administrative Law
800 Fifth Avenue, Suite 2000
Seattle WA 98104
(360) 753-6200
lisa.petersen@atg.wa.gov
Attorney for Growth Board, ELUHO
Lawrence S. Ebner
Nishani Naidoo
Atlantic Legal Foundation
1701 Pennsylvania Ave., NW
Washington, DC 20006
(202) 729-6337
lawrence.ebner@atlanticlegal.org
Counsel for Amicus Curiae

